HHS/OIG, Audit -"Review of Enhanced Federal Share Claimed for Family Planning Services in
Arizona During Federal Fiscal Years 2000, 2001, and 2002,"(A-09-04-00027)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Enhanced Federal Share Claimed for Family Planning Services in Arizona During Federal
Fiscal Years 2000, 2001, and 2002," (A-09-04-00027)
July 6, 2005
Complete
Text of Report is available in PDF format (695 kb). Copies can also be obtained by contacting
the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objective was to determine whether Arizona claimed enhanced Federal share for managed care family
planning services pursuant to Medicaid regulations and guidelines.  Arizona included an unsupported
eleven percent component representing the health plans' administration, profit, and contingency expenditures
in family planning rates used to determine managed care family planning services costs.  As a
result, between October 1999 and September 2002, Arizona increased its claims of family planning services
costs by $2,273,109.  By claiming these costs at the enhanced family planning rate of 90 percent,
rather than its regular Federal share, Arizonas claim for Federal reimbursement increased $558,093.
We recommended that the Medicaid agency work with CMS to determine the eligibility of the $558,093
enhanced Federal share claimed for administration of family planning services and ensure future rates
used to identify the family planning portion of the capitation payments for claiming enhanced Federal
share for administrative costs be specifically identified and documented as related to family planning
services.